             DEPARTMENT OF HEALTH AND HUMAN SERVICES                           Office of Inspector General
                                                                                Office of Audit Services

                                                                                      REGION IV
                                                                          61 Forsyth Street, S.W., Suite 3T41
                                                                               Atlanta, Georgia 30303

            SEP 2 9 2008



Report Number: A-04-07-03518

Ed Thompson, M.D., M.P.H.
State Health Officer
Mississippi State Health Department
P.O. Box 1700,0-416
Jackson, Mississippi 39215-1700

Dear Dr. Thompson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG), final report entitled "Allowability of Costs Claimed for
Reimbursement Under Mississippi's Bioterrorism Hospital Preparedness Program for the
Period September 1,2004, Through August 31, 2006." We will forward a copy ofthis
report to the HHS action officials noted on the following page for review and any action
deemed necessary.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS
action officials. Please refer to report number A-04-07-03518 in all correspondence.

                                      Sincerely,



                                      Peter J. Barbera
                                      Regional Inspector General
                                       for Audit Services

Enclosure
Page 2 - Ed Thompson, M.D., M.P.H.

HHS Action Officials:

Sandy Seaton
Health Resources and Services Administration
Office of Federal Assistance Management
Division of Financial Integrity
Parklawn Building, Room 11A-55
5600 Fishers Lane
Rockville, Maryland 20857

Jay Petillo
Director of Resource Planning and Evaluation
Assistant Secretary for Preparedness Response
200 Independence Avenue, SW, Room 624D
Washington, DC 20201
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   ALLOWABILITY OF COSTS
 CLAIMED FOR REIMBURSEMENT
     UNDER MISSISSIPPI'S
   BIOTERRORISM HOSPITAL
 PREPAREDNESS PROGRAM FOR
THE PERIOD SEPTEMBER 1, 2004,
  THROUGH AUGUST 31, 2006




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-04-07-03518
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops 'and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Under section 319 of the Public Health Service Act, the Bioterrorism Hospital Preparedness
Program (the Program) provides funds to State, territorial, and municipal governments or health
departments to upgrade the preparedness of hospitals and collaborating entities to respond to
bioterrorism and other public health emergencies from April 2002 to March 2007, the Health
Resources and Services Administration (HRSA) administered the Program. In March 2007, the
Pandemic and All-Hazards Preparedness Act (P.L. No. 109-417, December 19, 2006)
transferred responsibility for the program from HRSA to the Assistant Secretary for
Preparedness and Response.

In Mississippi, the State Department of Health (the State agency) administers the Program. For
the 2-year period September 1, 2004, through August 31, 2006, the State agency claimed
Program reimbursement totaling $7.4 million.

OBJECTIVE

The objective of our audit was to determine whether the costs that the State agency claimed for
reimbursement under the Program for the 2-year period September 1, 2004, through August 31,
2006, were allowable, allocable, and reasonable.

SUMMARY OF RESULTS

The $7,413,614 the State agency claimed for reimbursement for the period September 1,2004,
through August 31, 2006, was allowable, allocable, and reasonable. Accordingly, this report
contains no recommendations.




                                               1
                           TABLE OF CONTENTS


INTRODUCTION                                         1

    BACKGROUND                                       1
        Bioterrorism Hospital Preparedness Program   1
        Mississippi Program Funding                  1

    OBJECTIVE, SCOPE, AND METHODOLOGY                2
         Objective                                   2
         Scope                                       2
         Methodology                                 2

RESULTS OF REVIEW                                    3




                                       11
                                            INTRODUCTION

BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the Program) provides funds to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. 1 From March 2002 to March 2007, the Health Resources and Services
Administration (HRSA) administered the Program. In March 2007, the Pandemic and All-
Hazards Preparedness Act (P.L. No. 109-417, December 19,2006) transferred responsibility for
the Program from HRSA to the Assistant Secretary for Preparedness and Response.

HRSA elected to establish 12-month program years for 2003 through 2005 and then extended the
years for up to 24 additional months? HRSA issued a notice of award to each grantee to set
forth the approved budget as well as the terms and conditions of the individual cooperative
agreement.

To monitor the expenditure ofthese funds, HRSA required grantees to submit financial status
reports (FSR) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b)(3)) for Department of Health and Human Services grants to
State and local governments state: "If the Federal agency does not specify the frequency ofthe
report, it will be submitted annually." Because program guidance for 2003 was silent on the
frequency of submission, annual FSRs were required for that year. Program guidance for 2004
and 2005 required quarterly interim FSRs and a final FSR 90 days after the end of the budget
period, which we refer to in this report as a "program year."

Mississippi Program Funding

In Mississippi, the Mississippi State Department of Health (State agency) administers the
Program and distributes funds to subrecipients to carry out Program objectives. For the period
September 1, 2004, through August 31, 2006, the State agency was awarded approximately
$10.4 million and expended approximately $7.4 million.




lCongress initially authorized funding for this program under the Department of Defense imd Emergency
Supplemental Appropriations for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,
P.L. No. 107-117, through the Public Health and Social Services Emergency Fund at section 319 of the Public
Health Service Act (42 U.S.c. § 247d). In June 2002, Congress enacted section 319C-l of the Public Health Service
Act (42 U.S.c. § 247d-3a) to support efforts to counter potential terrorist threats and other public health
emergencies.

2ForMississippi, program year 2003 was August 31, 2003, to August 31,2005; program year 2004 was
September 1,2004, to February 28,2007; and program year 2005 was September 1, 2005, to August 31,2007.

                                                        1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that the State agency claimed for
reimbursement under the Program for the period September 1, 2004, through August 31, 2006,
were allowable, allocable, and reasonable.

Scope

Our review covered the $7.4 million in direct ($7,313,396) and indirect ($100,218) costs that the
State agency claimed for Program activities during the 2-year period September 1,2004, through
August 31, 2006, regardless of the grant year to which the expenditures were related. Program
years 2004 and 2005 were extended through February 28,2007, and August 31, 2007,
respectively. We limited our review of direct costs to a nonstatistical sample of 90 Program
expenditures for the period September 1, 2004, through August 31, 2006.

We did not review Program expenditures claimed by the State agency after August 31, 2006,
totaling approximately $2.2 million. Consequently, we offer no conclusions concerning the
allowability of costs associated with this period.

We did not review the overall internal control structure ofthe State agency or its subrecipients. 3
We limited our review of internal controls to obtaining an understanding of (1) the procedures
that the State agency and two subrecipients, Mississippi Hospital Association Health, Research
and Educational Foundation, Inc. (MHA Foundation) and University of Mississippi Medical
Center, used to account for Program funds and (2) the State agency's subrecipient monitoring
procedures.

We conducted our fieldwork at the State agency and the University of Mississippi Medical
Center offices in Jackson, Mississippi, and MHA Foundation in Madison, Mississippi from April
through May 2008.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations, State policies, program guidance, and
        notices of award for 2004 and 2005;

    •   reviewed State agency's accounting procedures and monitoring of subrecipients;

    •   tested FSRs for completeness and accuracy and reconciled the amounts reported to the
        accounting records and notices of award;



30ffice of Management and Budget Circular A-B3, "Audits of States, Local Governments, and Non-Profit
Organizations," defines a subrecipient as a non-Federal entity that expends Federal awards from a passthrough entity
and sets forth certain Federal audit requirements.
                                                         2
    •   verified that the State agency claimed indirect costs using the rate and base in its "State
        and Local Rate Agreement" approved by the Department of Health and Human Services
        Division of Cost Allocation;4

    •    interviewed officials and employees from the Mississippi State Department of Health and
         the Mississippi Office of the State Auditor;

    •   reviewed all programs related to infectious diseases, bioterrorism, emergency,
        preparedness and response prior to the receipt ofbioterrorism program funds for evidence
        of supplanting;5

    •    selected and tested a nonstatistical sample of 59 expenditures to determine whether the
         State agency expended Program funds for allowable, allocable, and reasonable costs; and

    •    reviewed two subrecipients' procedures to account for funds expended and tested a total
         of 31 nonstatistically selected subrecipient expenditures for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                           RESULTS OF REVIEW

The $7.4 million the State agency claimed for reimbursement for the period September 1, 2004,
through August 31, 2006, was allowable, allocable, and reasonable. Accordingly, this report
contains no recommendations.




40ffice of Management and Budget has designated the Division of Cost Allocation as the cognizant Federal agency
for reviewing and negotiating facility and administrative (indirect) cost rates that grantee institutions use to charge
indirect costs associated with conducting Federal programs.

5Section 3l9C-lG)(2) of the Public Health Service Act (42 U.S.c. § 247d-3e) states that program funds are meant to
augment current funding and not to replace or supplant any other Federal, State, or local funds provided for these
activities.
                                                           3
